No. 20-249

 

 

IN THE

Supreme Court of the Anited States

DOouG OMMEN, IN HIS CAPACITY AS
LIQUIDATOR OF COOPORTUNITY HEALTH, INC., and
DAN WATKINS, IN HIS CAPACITY AS SPECIAL
DEPUTY LIQUIDATOR OF COOPORTUNITY HEALTH, INC.,

Petitioners,
Vv.

MILLIMAN, INC., ET AL.,
Respondents.

On Petition for Writ of Certiorari
to the Supreme Court of Iowa

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,984 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 13, 2020.

 

Wilson-Epes Printing Co., Inc.
